U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




         NATIONAL OCEANIC AND
   ATMOSPHERIC ADMINISTRATION

                      NOAA’s “Corporate-Costs”
                      Process Needs Improvement


    Final Audit Report No. STD-14427-3-0001/March 2003




                              PUBLIC
                              RELEASE



   Office of Audits, Science & Technology Audits Division

                                                     March 10, 2003


MEMORANDUM FOR:	              Sonya G. Stewart
                              Chief Financial Officer/Chief Administrative Officer
                              National Oceanic and Atmospheric Administration



FROM:                         Johnnie E. Frazier

SUBJECT:                      NOAA’s “Corporate-Costs” Process Needs Improvement
                              Final Audit Report No. STD-14427-3-0001

Attached is our final report on NOAA’s corporate costs process. We note in our report
that NOAA officials have already made improvements in managing corporate costs, but
we also make a number of recommendations to further improve the process. Specifically,
NOAA should (1) improve the methods by which corporate costs are funded by the line
offices, (2) develop formal policies and procedures for the corporate-costs formulation
and distribution process, (3) establish a charter for the Corporate Board, and (4) develop
an aggressive corrective action plan to address relevant corporate-costs related problems
identified in this report and addressed in previous major studies. The executive summary
begins on page i, and recommendations begin on page 15.

We appreciate the level of attention and careful consideration that you and your staff took
to address our findings and recommendations, and we have noted, throughout the report,
the actions NOAA has taken to improve the corporate costs process since the completion
of our fieldwork and issuance of our draft report. Steps discussed in your response to our
draft report should provide a firm foundation for developing an audit action plan.

In accordance with DAO 213-5, please provide us with the audit action plan for our
review and concurrence addressing all of the report recommendations within 60 days of
this memorandum. Should you need to discuss the contents of this report or the audit
action plan, please call me at (202) 482-4661, or Michael Sears, Assistant Inspector
General for Auditing on (202) 482-1934.

Attachment

cc: Acting Deputy Chief Financial Officer/Director of Budget

   Director, Audit, Internal Controls, and Information Management Office
U.S. Department of Commerce                                                               Report No. STD-14427-3-0001 

Office of Inspector General                                                                                March 2003


                                            TABLE OF CONTENTS




EXECUTIVE SUMMARY ................................................................................................. i 

INTRODUCTION .............................................................................................................. 1 

OBJECTIVES, SCOPE, AND METHODOLOGY............................................................ 4 

FINDINGS AND RECOMMENDATIONS....................................................................... 5 

       I.	 Methods for Funding Corporate Costs Need to be Improved ............................... 5 

            Assessment Distribution Methodology Needs to be Improved ............................ 5 

            “Direct Billing” Algorithms Are Not Always Equitable and Reasonable............ 7 

            NOAA’s Response.............................................................................................. 10 

            OIG Comments ................................................................................................... 10

       II. F
           	 ormal Planning Process Needs to be Established.............................................. 10 

            Policies and Procedures Are Not Formalized ..................................................... 10 

            Executive Oversight Is Not Defined ................................................................... 11 

            NOAA’s Response.............................................................................................. 12 

            OIG Comments ................................................................................................... 13

      III. C
           	 orrective Actions Taken But More Needed...................................................... 13 

            NOAA’s Response.............................................................................................. 15 

            OIG Comments ................................................................................................... 15

      Recommendations...................................................................................................... 15 

      NOAA’s Response to Recommendations.................................................................. 16 

APPENDICES 

        I Acronyms 

       II Glossary of Terms 

       III Agency Response 

U.S. Department of Commerce                                     Report No. STD-14427-3-0001 

Office of Inspector General                                                      March 2003


                               EXECUTIVE SUMMARY 


NOAA uses the term “corporate costs” to refer to the costs associated with NOAA’s
central executive management and policy direction, as well as those associated with the
centrally controlled administrative services provided by the Office of Finance and
Administration (OFA). NOAA funds these costs from a variety of sources, including
appropriated funds from the Procurement, Acquisition and Construction account, and the
Program Support budget activity under the Operations, Research and Facilities account,
line office appropriated funds through assessments and direct billings, and an overhead
charge that is applied to NOAA’s reimbursable projects as a percentage of the total
reimbursements. OFA has overall responsibility for NOAA’s corporate-costs process.
Within OFA, the Office of Budget’s Business Management Fund Division is responsible
for managing the corporate costs. In FY 2000, NOAA spent more than $153 million for
activities identified as corporate costs, of which $92.5 million came from either
assessments or direct billings to the line office appropriations; $50 million came from the
Program Support appropriation; and $10.9 million from overhead charges applied to
NOAA’s reimbursable projects.

We conducted a performance audit of the process and practices NOAA used to develop
its corporate-costs budgets for FY 2000 and FY 2001 and focused on NOAA’s
management and funding of costs for centrally controlled administrative services. The
objectives of our review were to determine whether (1) the methodologies used to
distribute the corporate-costs budget throughout NOAA were systematic and rational, (2)
the planning process for developing the annual corporate-costs budget was reasonable,
and (3) the issues affecting the corporate-costs process identified in previous studies as
needing improvement have been addressed through corrective action.

Our specific findings and recommendations are as follows:

   • 	 NOAA’s line office assessment distribution methodology needs to be
       improved. NOAA assesses line offices to fund most corporate-costs activities.
       We found, however, that these assessments were not based on the direct labor
       methodology prescribed in NOAA’s Budget Handbook for corporate-costs
       distributable elements. Rather, they were based on what could best be described
       as a hybrid combination of historical practices and direct-labor assessments.
       Unfortunately, neither NOAA’s prescribed direct labor methodology—which was
       not used—nor its current hybrid practices are appropriate because neither result in
       a fair and transparent correlation of costs assessed to services provided. FASAB
       Standard #4, Managerial Cost Accounting Concepts and Standards for the
       Federal Government, requires that common costs that cannot be directly traced to
       activities that share the resources must be assigned to activities by reasonable
       allocations. (See page 5.)

   • 	 NOAA’s “direct billing” algorithms are not always equitable and reasonable.
       NOAA also funds a portion of the corporate-costs activities by “directly billing”
       line offices for special services. We found, however, that the costs borne by the
       line offices did not necessarily correlate to the level of services received. A

                                       i
U.S. Department of Commerce                                    Report No. STD-14427-3-0001 

Office of Inspector General                                                     March 2003


       proper direct billing methodology should trace the services provided to the actual
       associated costs and bill the specific entity benefiting from those services. Under
       NOAA’s system, various allocation methodologies are used to distribute the
       “direct” costs to the line offices, some of which may not have derived any benefit
       from the services at issue. Those methodologies apply different algorithms for
       each of the services provided. We found that these algorithms were not always,
       equitable, reasonable or appropriate and did not consistently and fairly correlate
       costs to services received. Consequently, there was little, if any, assurance that
       the line offices were paying an appropriate and reasonable portion of the costs.
       FASAB Standard #4 states that if costs cannot be directly traced to services or
       assigned on a cause-and-effect basis, they should be allocated on a reasonable and
       consistent basis. (See page 7.)

   • 	 NOAA has no formal planning process for developing the annual corporate-
       costs budget. As a result, there is no assurance that the process has the internal
       controls necessary to ensure that the corporate-costs budget is properly developed,
       and consistently managed, and that costs are effectively contained. Specific and
       well-defined policies and procedures—which are currently lacking—are an
       integral component of effective internal controls. (See page 10.) Also, we found
       that the Corporate Board NOAA established to provide oversight of the corporate-
       costs process still does not have a formal charter. A formal, well-defined charter
       would be a key component of an effective internal control system that will
       address the agency’s cost containment responsibilities and outline the Board’s
       membership, duties, objectives, and activities, and make clear which issues the
       Board must address. Without a charter, there is little, if any, assurance that the
       Board will consistently and effectively address the critical corporate-costs issues
       facing NOAA. (See page 10.)

   • 	 Although some corrective actions have been initiated, NOAA has been slow
       to address the corporate-costs problems identified in previous studies. We
       are aware of several internal NOAA studies conducted between 1996 and 1998,
       which resulted in recommendations that address accountability and operational
       issues affecting the corporate-costs process. These studies recommended
       improvements such as tying assessments to services received, increasing the
       involvement of top NOAA officials in the process, and enhancing customers’
       involvement in the process. In 2000, the National Academy of Public
       Administration (NAPA), at NOAA’s request, completed a review of NOAA’s
       budget and financial management processes. NAPA’s report comments on
       accountability issues regarding the corporate costs and incorporates previously
       defined issues from the above-mentioned studies by making consolidated
       recommendations to address the problems. Although NOAA made efforts to
       identify problems and solutions regarding the corporate-costs process through
       these various studies, it has not moved forward with all necessary improvements.
       However, NOAA has responded to some of the recommendations in these studies
       by taking several important actions including creating and filling a position of
       Deputy CFO/Director of Budget at the SES level; establishing a Corporate Board;
       involving the line offices in the budget process; establishing a Budget Office

                                       ii
U.S. Department of Commerce                                      Report No. STD-14427-3-0001
Office of Inspector General                                                       March 2003

       division to oversee the corporate-costs process; restructuring NOAA’s budget in
       order to fund executive management and policy direction (EXAD) from Program
       Support appropriation funds and not from line office assessments; and issuing
       revised indirect cost policies and procedures. Additionally, NOAA has contracted
       with a private firm to define the central administrative services provided to line
       offices and their associated service costs so that NOAA may use Activity-Based
       Costing as a methodology for distributing the costs. NOAA has also taken action
       to establish a “Business Management Fund,” which is structured as, and
       commonly referred to as, a working capital fund, as the financing mechanism for
       the costs. Despite this progress, NOAA has more to do. In addition to addressing
       the issues outlined in this OIG report, NOAA should develop a formal plan to
       address, as appropriate, each of the unresolved NAPA report recommendations.
       The NAPA recommendations were designed to improve accountability, ensure a
       clear and formal requirements process, develop a methodology to correlate costs
       to services provided, and convert non-service activities currently funded by
       assessments to appropriations-based funding. (See page 13.)

We recommend, beginning on page 15, that the NOAA Chief Financial Officer/Chief
Administrative Officer ensure that the following actions are undertaken:

   1. Improve the methods by which corporate costs are funded by the line offices by:

           a. 	 Developing and implementing appropriate distribution methodologies and
                related algorithms that fairly and transparently correlate costs to services
                received and meet the requirements contained in FASAB Standard #4,
                Managerial Cost Accounting Concepts and Standards for the Federal
                Government, for costs that cannot be directly attributed to specific line
                offices. The methodologies should be fully documented in NOAA’s
                directives system.

           b. 	 Using fee-for-service billing for those cost elements where that method is
                practical and appropriate. The process for such billings should be
                documented in NOAA’s directives system.

   2. 	 Improve the planning process for developing the corporate costs by:

           a. 	 Developing formal policies and procedures that detail the NOAA
                corporate-costs formulation and distribution process and that outline the
                purpose, objectives, roles, responsibilities, key events, and timeline. The
                policies and procedures should be fully documented in NOAA’s directives
                system.

           b. 	 Establishing a charter for the Corporate Board. The charter should define
                the Board’s authority, mission, objectives, and membership, as well as
                membership criteria and responsibilities, including responsibilities for
                containing costs.



                                        iii
U.S. Department of Commerce                                     Report No. STD-14427-3-0001 

Office of Inspector General                                                      March 2003


   3. 	 Include in the audit action plan in response to this audit report specific steps to
        address corporate-costs-related problems identified by this report and addressed in
        the March 2000 NAPA report. The steps should identify the problems,
        responsible officials, and dates for completion, and specify appropriate tasks to
        resolve the problems. The action plan steps should address how NOAA will
        improve accountability to customers, ensure a clear and formal requirements
        process, develop a methodology to correlate costs to services provided, and
        convert, if appropriate, any remaining non-service activities, including any non-
        service activities identified as a result of the ABC costing analysis, funded by
        assessments to appropriations. The audit action plan will be monitored to ensure
        that all remedial tasks identified are completed.

As noted above, NOAA has taken steps to establish a working capital fund as
recommended in the NAPA report. However, a working capital fund will not of itself
solve all of the problems with NOAA’s corporate-costs process unless the issues
identified in this report are addressed and corrective actions taken.

                                            ****

Overall, NOAA concurred with the findings and recommendations identified in the report
and was pleased that the OIG had recognized some of the actions NOAA had taken to
improve its corporate costs process. However, NOAA officials stated that the report does
not adequately acknowledge all of the work NOAA has underway and near completion.
They stated that many of the problems identified in the report with FY 2000 and 2001
were corrected for the FY 2002 process. In addition, NOAA officials stated that the
Business Management Fund Division within the NOAA Budget Office is guided by the
principals of an Activity-Based-Management concept that will result in the conversion of
NOAA’s corporate costs from an assessment-based methodology to an activity-based
methodology. NOAA officials further stated that they are in the process of developing a
clear and formal requirements process for FY 2004, and noted the following key
accomplishments:

   • 	 An open corporate cost development process where customers participate and
       support proposals, rather than the prior adversarial nature of corporate costs
       development;

   • 	 A corporate board (the charter is currently under review by NOAA senior
       management) review process that culminates in final decision early in the fiscal
       year;

   • 	 A funds control process in OFA that includes monthly budget reports, adherence
       to a Table of Organization encompassing OFA’s authorized personnel, and
       publicly reported year-end closeouts; and

   • 	 Completion of a comprehensive Activity Based Costing review of all of OFA’s
       services. This will result in services aligned to customer needs and billed
       accordingly.

                                       iv
U.S. Department of Commerce                                 Report No. STD-14427-3-0001 

Office of Inspector General                                                  March 2003




We note that the period of review for the OIG audit of NOAA’s corporate costs process
was FY 2000 and 2001. In responding to our report, NOAA officials stated that they
have taken actions during their FY 2002 corporate costs process to correct many of the
issues we discussed with them during our review. We commend NOAA’s reported
actions and acknowledge that, with these reported changes, accountability should be
greatly increased. We will be monitoring progress made on NOAA’s audit action plan.
Based upon NOAA’s comments to the draft report, we have made changes throughout the
report where warranted and NOAA’s specific comments are included after each finding
and recommendation in the report. The NOAA response in its entirety is included as
Appendix III to the report.




                                     v
U.S. Department of Commerce                                                Report No. STD-14427-3-0001 

Office of Inspector General                                                                 March 2003



                                         INTRODUCTION 


The National Oceanic and Atmospheric Administration (NOAA) is the largest agency
within the Department of Commerce and has a varied and complex set of program
responsibilities. NOAA’s mission is to describe and predict changes in the Earth’s
environment and to conserve and manage the nation’s coastal marine resources to ensure
sustainable economic opportunities.

NOAA uses the term “corporate costs” to refer to the costs associated with its (1) central
executive management and policy direction, and (2) centrally controlled administrative
services provided by the Office of Finance and Administration (OFA), such as personnel
and contracting services that are used by NOAA’s line offices. These costs are primarily
indirect costs incurred at the NOAA Headquarters level that are distributed to the line
offices. NOAA funds these costs from a variety of sources, including appropriated funds
from the Procurement, Acquisition and Construction account, and the Program Support
Budget Activity2 under the Operations, Research, and Facilities (ORF) account, line
office appropriated funds through assessments3 and direct billings, and an overhead
charge that is applied to NOAA’s reimbursement projects as a percentage of the total
reimbursements.

OFA has overall responsibility for NOAA’s corporate-costs process. Within OFA, the
Office of Budget’s Business Management Fund Division is responsible for managing the
corporate-costs process. For FY 2000, NOAA spent more than $153 million for activities
identified as corporate costs, of which $92.5 million came from line office appropriated
funds as a result of either assessments or direct billings; $50 million came from the
Program Support appropriated funds; and $10.9 million from overhead charges applied to
NOAA’s reimbursement projects.

NOAA uses a cumbersome process, only partially documented, to develop and fund its
corporate-costs budget. For FY 2000, NOAA reported that $50 million in appropriated
funds under the Program Support budget activity were used to fund executive direction
and policy responsibilities including $11 million for Executive Direction and
Administration (EXAD), which included the Office of the Under Secretary and
supporting staffs4. An additional $10.7 million was obtained from line office
appropriated funds through the corporate-costs assessment to pay for EXAD activities in
FY 2000.


2
  Program Support activities provide programs and people within NOAA the administrative and
infrastructure support necessary for the programs to meet their missions and for the agency to meet its
broader goals. Source: NOAA FY 2001 Budget Request
3
  The line offices are assessed the bulk of the corporate costs; however, OMAO and other NOAA offices
are assessed a very small amount, about $631,000 or .7% of the total corporate costs assessment in FY
2000.
4
  EXAD, as defined in P.L. 106-113, consists of the Offices of the Under Secretary, the Executive
Secretariat, Policy and Strategic Planning, International Affairs, Legislative Affairs, Public Affairs,
Sustainable Development, the Chief Scientist, and the General Counsel.


                                              1
U.S. Department of Commerce                                               Report No. STD-14427-3-0001
Office of Inspector General                                                                March 2003

NOAA officials advised that they restructured their budget in FY 2002 in response to
Congressional requests. In an attempt to provide a more distinctive linkage of
administrative services to NOAA program activities, NOAA realigned the Program
Support budget activity to incorporate a Corporate Services subactivity that funds the
corporate costs for executive direction and policy formulation and direction activities.
NOAA reported that the EXAD activities and policy responsibilities became fully funded
out of the Corporate Services Office account and that funding support from the line
offices through the corporate-costs assessments is no longer needed. Because many of
the financial records for the fiscal year 2002 were still preliminary during the conduct of
our audit fieldwork, it was not possible at that time to confirm the source of funds used
for EXAD activities during FY 2002.

The second component of NOAA’s corporate costs, centrally controlled administrative
services, is funded by line office appropriated funds through assessments and direct
billings, and by overhead charges applied to NOAA’s reimbursable projects. Centrally
controlled administrative services are provided or managed by OFA for the line offices
and are primarily funded through the assessments. Examples of these services include
personnel, budget, grants and acquisition management, facilities, finance, and support for
the Administrative Support Centers. The costs also include “common” costs for
administering the Workman’s Compensation program, providing sign language
interpreting and Employee Express services, and paying the Department’s Working
Capital Fund bill for services the Department of Commerce provides NOAA. The line
offices are also “directly billed” for “extra” services, not included in the assessment, that
OFA provides line offices. NOAA distributes these “direct billed” services using
distribution methodologies that purportedly correlate services provided to costs incurred.
For FY 2000, the line offices were assessed $71.5 million and directly billed $8.4 million
for the centrally controlled administrative services.

NOAA uses its Management Fund5 as the financial mechanism to plan, obligate, and
account for funds collected from the assessments, direct billings, and overhead charges
applied to NOAA’s reimbursement projects to pay for NOAA’s corporate costs that are
not funded by direct appropriation under NOAA’s Program Support budget activity.
Among other things, this mechanism allows the different sources of corporate cost
funding to flow from the source accounts into one location, the Management Fund, where
the funds are obligated to pay the myriad costs included in the centrally controlled
administrative services and Administrator’s Fund6, a contingency fund set up for
unplanned requirements. The Management Fund is not an appropriated fund, is not
formally identified in NOAA’s annual Budget Request to the President, and is used for

5
  A Management Fund Account is authorized by law to credit collections from two or more appropriations
to finance activity not involving a continuing cycle of business-type operations. Such accounts do not
generally own a significant amount of assets such as supplies, equipment, or loans, nor do they have a
specified amount of capital provided--a corpus. Source: GAO’s A Glossary of Terms Used in the Federal
Budget Process, GAO/AFMD-2.1.1, January 1993.
6
  The Administrator’s fund is a contingency fund previously called the Administrator’s Distribution Fund
established annually from appropriated funds for and administered by the Administrator, NOAA. It
provides the funding for unplanned requirements which could not be foreseen when the budget was
presented to Congress. Source: NOAA Budget Handbook.


                                             2
U.S. Department of Commerce                                      Report No. STD-14427-3-0001
Office of Inspector General                                                       March 2003

many purposes, one of which is corporate costs. To pay NOAA’s FY 2000 corporate
costs, a total of $103.4 million flowed through the Management Fund. This amount
consisted of $84.1 million in assessment funds ($10.7 million for EXAD, $71.5 million
for central services, and $1.9 million for Administrator’s Fund), $8.4 million in direct
billing funds, and $10.9 million in overhead funds from NOAA’s reimbursable projects.

NOAA’s Corporate Board is responsible for reviewing and approving the NOAA
corporate-costs budget. The members of the Board are the Deputy Under Secretary for
Oceans and Atmosphere (Chairman); the Deputy Assistant Administrators of NMFS,
NOS, OAR, NWS, NESDIS, and OMAO; and the NOAA Chief Financial Officer (CFO).
The NOAA Deputy Chief Financial Officer/Budget Officer (Budget Officer) is not a
Board member but serves in an advisory capacity to ensure that the Board’s instructions
are executable. In FY 2000, the Budget Officer developed a “Corporate-costs Process”
schedule for the 2-year period covering FY 2000 and 2001. The schedule is being used as
a guide in developing the corporate-costs budget.

The Corporate Board is responsible for approving the amount of corporate-costs funding
to be assessed to the line offices and the amounts to be directly billed to the line offices
for special services that NOAA officials explained are regularly requested by the line
offices. NOAA’s Budget Execution and Operations Division assesses the line offices
using an allocation methodology and bills the line offices “directly” for additional special
services using allocation methodologies unique to each service.

The results of our audit provide details on problem areas we identified with the corporate-
costs process, as well as our recommendations to address these problems.




                                        3
U.S. Department of Commerce                                      Report No. STD-14427-3-0001 

Office of Inspector General                                                       March 2003



                   OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our performance audit were to determine whether (1) the
methodologies used to distribute the “corporate costs” throughout NOAA were
systematic and rational, (2) the planning process for developing the annual corporate-
costs budget was reasonable, and (3) the issues affecting the corporate-costs process
identified in previous studies as needing improvement have been appropriately addressed.
The scope of our audit focused on management of the corporate-costs process covering
the centrally controlled administrative services provided by the Office of Finance and
Administration for all of NOAA. The period of review covered FY 2000 and 2001. In
addition, although we did not formally review FY 2002 activities, we did confirm that the
overall practices used to plan and distribute NOAA’s corporate costs in FY 2000 and
2001 were also used in FY 2002.

Our review methodology included interviews with NOAA Headquarters and line office
representatives and review of pertinent documents such as NOAA’s budgets for FY 2000
and 2001, NOAA’s budget submission for FY 2002, the NOAA Budget Handbook, and
the National Academy of Public Administration report, Improving the NOAA Budget and
Financial Management Processes, issued in March 2000. We reviewed NOAA policies
for distributing indirect costs, NOAA budget planning and execution documents, OIG
audit reports, corporate-costs documentation for FY 2000 and 2001, and any actions
taken by NOAA to correct identified deficiencies. We also examined federal guidance
and legislation, relevant federal laws, regulations, and guidelines, including the Statement
of Federal Financial Accounting Standards Number 4, Managerial Cost Accounting
Concepts and Standards for the Federal Government, published by the Office of
Management and Budget (OMB); the Chief Financial Officers Act of 1990, Public Law
101-576; and OMB Circular A-123, Management Accountability and Control.

We evaluated the adequacy of internal controls related to the development and
distribution of NOAA headquarters corporate costs. We found that key steps in the
corporate-costs process were not documented, as described in detail in the body of this
report. We did not assess the reliability of computer-generated data because such data
was not used during our review, and we did not conduct any substantive testing of
transactions.

Our audit was conducted in accordance with generally accepted government auditing
standards, and was performed under the authority of the Inspector General Act of 1978,
as amended, and Department Organization Order 10-13, dated May 22, 1980, as
amended. Our audit was conducted from August 2001 through January 2002, at the
Herbert Hoover Building in Washington, D.C., and NOAA’s Silver Spring Metro
Complex in Maryland.




                                        4
U.S. Department of Commerce                                        Report No. STD-14427-3-0001 

Office of Inspector General                                                         March 2003



                       FINDINGS AND RECOMMENDATIONS


Our audit of the NOAA corporate-costs process revealed that the methods NOAA uses to
fund corporate costs are not systematic and rational, and that NOAA does not have a
formal planning process for developing the annual corporate-costs budget. We also
found that NOAA has taken some important corrective actions to improve the corporate-
costs process; however, NOAA has been slow to address the problems dealing with the
corporate-costs process identified in prior studies.

I. METHODS FOR FUNDING CORPORATE COSTS NEED TO BE IMPROVED

Assessment Distribution Methodology Needs to be Improved

NOAA assesses line offices to fund its corporate-costs activities; however, these
assessments are not based on the direct labor methodology prescribed in NOAA’s Budget
Handbook for corporate-costs distributable elements. Instead, NOAA uses what could
best be described as a hybrid combination of historical practices and direct labor
assessments, which has no definitive basis and does not conform to FASAB Standard #4,
Managerial Cost Accounting Concepts and Standards for the Federal Government.
Unfortunately, neither NOAA’s prescribed direct labor methodology—which is not
used—nor its current hybrid practices are reasonable or appropriate because there is no
fair and transparent correlation of costs assessed to services provided. Standard #4 states
that common costs that cannot be directly traced to any one of the activities or outputs
that share the resources must be assigned to activities by reasonable allocations.

Agency officials stated that NOAA has not planned or budgeted its corporate costs, or
any other indirect costs, in line with established policy because to do so would unfairly
burden the line offices that have heavy labor costs—i.e., large staffs. For example, NWS
has the highest direct labor costs because it employs about 47 percent of all NOAA
employees. Because of this, NWS would pay the largest share of the OFA Human
Resources staff costs, which may be reasonable; however, NWS would also pay the
largest share of the OFA Grants Management staff costs regardless as to the level of
services used. To resolve this inequity, NOAA utilizes a “historical” distribution
methodology for all indirect costs, including the corporate costs, agency-wide. However,
the basis for this methodology is undocumented, and NOAA was not able to explain the
origin of the percentage numbers used in the historical distribution.

NOAA officials stated that if they attempted to use direct labor as a distribution
methodology for corporate and other indirect costs, some line offices would be required
to pay a higher corporate-costs share than they have been paying but would receive no
proportional budget increase to cover the additional expenses. To correct the situation,
NOAA asserted that a mass realignment of funds would be necessary throughout NOAA
to move corporate and other indirect cost funding from line office to line office so that
current programs would not be adversely affected. According to NOAA officials, such a
realignment could be labor-intensive, difficult, and confusing. Additionally, NOAA
officials have stated that direct labor can shift from year-to-year as projects and priorities


                                         5
U.S. Department of Commerce                                                     Report No. STD-14427-3-0001
Office of Inspector General                                                                      March 2003

change, so that there is a potential that funds would need to be realigned each year.
However, even if realigning funds were feasible, NOAA managers assert that using direct
labor as a distribution methodology is not always reasonable because use of such a
method does not necessarily ensure the most accurate correlation between costs and
services received.

Despite these concerns and in an effort to follow its documented policy, NOAA has
attempted to bring the corporate-costs assessment in line with the prescribed direct labor
distribution methodology. Beginning in FY 2000, NOAA began using a two-tier
methodology. The first tier consisted of corporate base costs, which equaled about 96
percent of the FY 2000 assessment, and was allocated to line offices using percentages
derived from NOAA’s undocumented historical methodology. The second tier, consisting
of increases to corporate base costs amounting to 4 percent of the total FY 2000 corporate
assessment, was allocated to the line offices using the prescribed direct labor
methodology. Table 1 compares the allocation of corporate costs using the two-tier
methodology vs. direct labor. Using the prescribed direct labor distribution methodology
as a basis of distribution would result in NWS and NOS paying more of the costs and
NMFS, OAR, and NESDIS paying less. Since the costs are ultimately allocated to the
programs, this allocation process somewhat distorts the costs of the individual NOAA
programs.

                Table 1: Historical vs. Direct Labor Distribution for FY 2000 

                         Total Budgeted Assessment: $81,530,500* 

                                                                  7
      Assessment                               NOAA Line Offices
      Methodology            NOS              NMFS                OAR               NWS            NESDIS
    Direct Labor **       $9,457,538       $18,075,312          $7,158,378      $38,832,977       $6,693,654
    Historical
    Two-Tier              $8,470,900       $20,045,000          $9,811,100      $35,383,200       $7,138,700
    Difference              $986,638       ($1,969,688)       ($2,652,722)       $3,449,777       ($445,046)

* The $81,530,500 is the amount approved by the Corporate Board prior to any increases experienced
during the fiscal year.
** Direct labor rate used in this table is based on the direct labor rates applied in FY 2000 as a part of the
two-tier methodology.

NOAA officials acknowledged that using either direct labor or the hybrid method as
allocation methodologies for all central services is not reasonable and they are moving
toward charging for such services on a fee-for-service basis. NOAA has entered into a
contract with a consulting firm to develop fee-for-service models for the central
administrative services OFA provides line offices. NOAA believes these actions should
delineate the path from costs to amount and quality of services received providing the
line offices data on which to provide feedback to the servicing organizations. NOAA
has stated that the contractor is also working with the Budget Office to develop a
7
 Only the five LOs are listed as they receive the bulk of the assessment. OMAO and other NOAA offices
contribute a very small amount, approximately $631,000 in FY 2000, toward the assessment.



                                                 6
U.S. Department of Commerce                                     Report No. STD-14427-3-0001
Office of Inspector General                                                      March 2003

methodology to distribute the common costs that cannot be directly charged. NOAA is
also seeking legislative approval to establish a Business Management Fund (BMF) that is
structured as and commonly referred to as a working capital fund (WCF) and which
would be used as the funding mechanism to cover all corporate-costs activities that can
be directly charged on a fee-for-service basis. NOAA officials have stated that they will
proceed with establishing a fee-for-service basis of charging costs regardless of the
outcome of the request to establish the BMF.

NOAA needs to continue its efforts to fully develop and implement a distribution
methodology that is transparent, fair, and reasonable, and is in conformance with FASAB
Standard #4. We note that the NAPA report recommends that NOAA establish a WCF to
establish accountability over the corporate costs by having an oversight body, customer
representatives, a charter, and performance objectives. We see the merits in NOAA
establishing a WCF and, if properly administered, such a fund could provide more
accountability and visibility to the serviced agencies and Congress. With a WCF, NOAA
would no longer need to finance the corporate costs through the Management Fund.
Additionally, NOAA would be required to produce yearly statements of current assets
and liabilities, as well as a schedule of expenditures and reimbursements that should
provide improved accountability over the funds. However, before a WCF is established,
NOAA must adequately addresses the issues and corrective actions noted in this report.

“Direct Billing” Algorithms Are Not Always Equitable and Reasonable

NOAA also funds a portion of the corporate-costs activities by “directly billing” line
offices for special services; however, the costs borne by the line offices do not
necessarily correlate to the level of services received. A proper direct billing
methodology should trace the services provided to the actual associated costs and bill the
specific entity that benefited from those services. Under NOAA’s system, various
allocation methodologies are used to distribute the “direct” costs to the line offices.
Those methodologies apply different algorithms for each of the services provided. We
found that these algorithms were not always equitable, reasonable, or appropriate and did
not consistently and fairly correlate costs to services received. Consequently there was
little, if any, assurance that the line offices were paying an appropriate and reasonable
portion of the costs. As previously noted, FASAB Standard #4 states that if costs cannot
be directly traced to services or assigned on a cause-and-effect basis, they should be
allocated on a reasonable and consistent basis.

NOAA stated that it uses this process to bill the line offices for services that OFA
provides on special projects that exceed the services funded by the assessment. For FY
2001, each direct-billed project was supported by an information sheet that outlined the
services, the funding, the responsible accountability officer, background information on
the special project service, and the algorithm used for distributing the costs. These
information sheets were used as the basis for making funding decisions during the
corporate-costs decision process.

NOAA stated that the direct billing costs correlated directly to the services provided,
similar to a fee-for-service methodology. However, we found that NOAA does not have a


                                       7
U.S. Department of Commerce                                       Report No. STD-14427-3-0001
Office of Inspector General                                                        March 2003

system in place to directly track project costs and bill them to the entity that benefits from
the project, as would be the case in a fee-for-service environment, but rather NOAA uses
algorithms to distribute these costs. The algorithms did not always appear to be rational
and equitable because the costs did not always correlate to the services provided.

For example, as noted in Table 2, the Special Employment Program was intended to
provide resources to develop, implement, and maintain a NOAA-wide Special
Employment Program to assist managers in achieving NOAA affirmative action goals.
The algorithm used for this element distributed the costs evenly to each of the five line
offices despite the fact that a line office’s use of the program was directly proportional to
the number of managers in the line office. It is not reasonable to assume that all line
offices have the same number of managers and that each should pay the same portion of
the costs. Using this methodology suggests there was an inequitable distribution of the
costs for this project.

The New Operating Payment Environment element related to the costs incurred by the
finance offices in Germantown, MD and the Administrative Service Centers to process
payments to vendors. However, the algorithm used to distribute the costs was based on
the percentage of line office/program office/staff office personnel. This also is
unreasonable, as the number of vendor payments did not appear to have any correlation
to the number of line office/program office/staff office personnel.

Other examples in Table 2 used algorithms based on separate historical allocation
methodologies, with no direct correlation between services provided and costs incurred.
NOAA’s descriptions of the historical methodologies, as stated on the information sheets,
do not provide a sufficient level of detail for reviewers to determine whether the
algorithm is fair and reasonable.




                                        8
U.S. Department of Commerce                                             Report No. STD-14427-3-0001 

Office of Inspector General                                                              March 2003


                     Table 2: FY 2001 Direct Bill Allocation Methodologies

                                         NOAA’s Allocation
    Direct Billed Services                   Methodology
      (listed on project                  (listed on project           OIG Concerns about
     Information Sheet)                  Information Sheet)               Methodology
Special Employment Program.             Distributed evenly to major   Algorithm does not appear to
Provides resources for the              line offices.                 relate to the level of services
development, implementation, and                                      provided to a line office, as
maintenance of this NOAA-wide                                         staffing and numbers of
Program to assist managers in                                         managers may differ greatly
achieving NOAA affirmative action                                     from one line office to
goals.                                                                another.

SSMC Support Services.                  Based on staffing by line     Algorithm is not based on
Produce resources to complete the       office with an additional     the benefit conferred by the
restacking efforts for the NMFS         $100,000 billed to NOS for    work. The information sheet
and Office of General Counsel on        NOS-specific work.            explanation shows NMFS
the 15th floor, Silver Spring Metro                                   and OGC are benefiting
Center III.                                                           offices; however, all the line
                                                                      offices share in the costs.

New Operating Payment                   Based on percent of line      Algorithm is not based on
Environment. Provides additional        office/program office/staff   the benefit conferred by the
resources in finance offices in         office personnel.             work; the benefit to the line
Germantown, MD, and at the                                            offices is based on the
ASCs to maintain the current level                                    number of vendor payments
of service for making vendor                                          made for each line
payments via the NOAA Payment                                         office/program office/staff
System.                                                               office, not on the percentage
                                                                      of personnel.
Computer Division Contract              Historical distribution of    Algorithm is not specific, but
Costs/Central Info. Tech.               costs (staffing in the        is based on historical
Provides funding for a contract in      originating fiscal year).     distributions without
the Computer Division of the            Any additional changes        sufficient description of the
Information Technology Center           are based on staffing by      basis for the distribution.
                                        line office.

Facilities – Audit Support              Based on a historical         Algorithm is not specific, but
Provides resources to address           percent of line               is based on historical
audit issues relating to real           office/program office/staff   distributions without
property and personal property.         office FTEs.                  sufficient description of the
                                                                      basis for the distribution.
Indoor Air Quality – SSMC               Based on historical           Algorithm is not specific, but
Provides funding for remediation        distribution rates for each   is based on historical
activities at the Silver Spring Metro   line office/staff office.     distributions without
Center Campus to improve indoor                                       sufficient description of the
air quality.                                                          basis for the distribution.


As a result of the algorithms used, individual line offices may have been billed for more
or less than their fair share of the direct bill costs. More importantly, use of the term
“direct billing” suggests that the cost could be directly linked to the services provided,


                                             9
U.S. Department of Commerce                                     Report No. STD-14427-3-0001
Office of Inspector General                                                      March 2003

which would have precluded the necessity for an algorithm. NOAA needs to determine
which of these costs should be billed to specific line offices on a fee-for-service basis
and, for those costs that must be allocated, develop a distribution methodology that will
clearly and fairly correlate costs to services received and conform to the principles
contained in FASAB Standard #4.

NOAA’s Response

NOAA officials stated that in FY 2004, they will use Activity-Based Costing to charge
their customers for services based upon usage. Additionally, NOAA stated in FY 2002,
their Direct Bill process for NOAA changed. The Business Management Fund Division
met with the Line Office Chief Financial Officers/Management and Budget Chiefs to
discuss the costs and algorithms for the Direct Bill items and they unanimously agreed
with the total costs and algorithms used. NOAA stated that the algorithms were
equitable, reasonable, and appropriate, and consistently and fairly correlated costs to
services received. NOAA stated that the costs and bills are reviewed every year and if
alternative billing mechanisms are available that are more accurate, they are adopted.
Additionally, NOAA stated that three of the algorithms included in Table 2 of this report
were changed for FY 2002.

OIG Comments

The actions NOAA officials state they have taken for FY 2002 should improve the
accountability for the direct bill charges and provide a better link between charges and
services received. Additionally, the use of Activity-Based Costing, when fully
implemented, should more clearly associate services provided with costs when it is fully
implemented in FY 2004.

II. FORMAL PLANNING PROCESS NEEDS TO BE ESTABLISHED

Policies and Procedures Are Not Formalized

We found that NOAA does not have formal, documented policies and procedures for
managing its corporate-costs process. Without formal policies and procedures, there is no
assurance that the corporate costs will be developed and managed in a consistent and
equitable manner during each budget cycle. Nor is there any assurance that the
information the Corporate Board uses to make decisions regarding the level of funding
for corporate costs, including which projects to fund, is reasonable, accurate, or fully
supported because there are no formal requirements to create and maintain supporting
documentation. According to OMB Circular A-123, Management Accountability and
Control, policies and procedures are tools in an agency’s internal control system to help
program and financial managers achieve results and safeguard the integrity of their
programs.

During FY 2000, responsibility for the corporate-costs process was transferred from the
Office of Finance and Administration, Management and Budget Division, to the NOAA
Budget Office. In an effort to provide accountability over the process, the Budget Officer


                                       10
U.S. Department of Commerce                                      Report No. STD-14427-3-0001
Office of Inspector General                                                       March 2003

prepared a one-page “Corporate-costs Process” schedule for the 2-year period covering
FY 2000 and 2001. She also provided direction to the appropriate budget officials by e-
mail correspondence and meetings. These communications afforded a loose mechanism
through which to develop the corporate-costs budget; however, these ad-hoc directions do
not have the authority and force held by formal policies and procedures, nor do they
provide detailed guidance for staff.

During the corporate-costs budget formulation process, the Budget Office transmits
information to the line office budget officials and the Corporate Board members,
including tables and charts outlining budget requirements, OFA staff requirements,
information about special projects and direct billings, and line office allocations. Because
there are no formal policies to direct how the information and data should be arrayed,
what information should be captured, or the documentation that should be provided to
reviewing officials, the Board has no assurance that the information provided for
formulating its decisions is consistent, complete, or accurate. Line office budget officials
stated that although the process that began in FY 2000 was more open than in the past,
they often did not have sufficient time to review the information supporting the corporate
costs prior to meetings. They stated that charts containing cost information changed
format from one meeting to another, which caused confusion when they tried to make
comparisons. As a result, they were not always able to determine whether the costs were
complete and accurate, and were, therefore, not always able to make informed decisions.

There also are no formal policies outlining the level of analysis or communication with
the line offices during OFA budget preparation. For instance, there was no requirement to
analyze the base costs when preparing the FY 2000 and 2001 budgets for the OFA units.
Additionally, there were no formal minutes or notes to record the results from meetings
held with NOAA budget officials and the Corporate Board, and no formal notification of
the final corporate-costs figures transmitted to the line offices, other than the Allowance
Advice. There is, in fact, no requirement to provide any feedback to the line offices
regarding the status of the corporate-costs obligations and expenditures once the
corporate budget is approved.

Specific and well-defined policies and procedures are an integral component of an
agency’s internal controls. Formalized policies and procedures are needed to set the
control mechanisms that will enable NOAA’s corporate-costs process to consistently
meet the needs of the agency with input from all involved parties. NOAA’s current
practices provide a framework for the process, but the framework needs to be filled in.
The policies and procedures should detail NOAA’s corporate-costs formulation and
distribution process and outline the purpose, objectives, roles, responsibilities, key
events, and timeline.


Executive Oversight Is Not Defined

The Corporate Board was established for the FY 1999 corporate-costs process to provide
oversight of the corporate-costs process, but no charter was created to identify the Board
membership, responsibilities, objectives, or activities. A formal, well-defined charter is a


                                        11
U.S. Department of Commerce                                    Report No. STD-14427-3-0001
Office of Inspector General                                                     March 2003

needed addition to NOAA’s internal controls that will address cost containment issues,
outline the Board’s membership, responsibilities, objectives, and activities, and make
clear which issues the Board must address. OMB Circular A-123 requires agency heads
to design management structures that help ensure accountability for results, and a system
of good internal controls is key to that structure.

As previously noted, the Board currently consists of the Deputy Under Secretary for
Oceans and Atmosphere (Chairman), the Deputy Assistant Administrators of NMFS,
NOS, OAR, NWS, NESDIS, and OMAO, and the NOAA Chief Financial Officer. The
NOAA Deputy Chief Financial Officer/Budget Officer, while not a member, serves in an
advisory capacity to ensure that the Board’s instructions are executable. The Board has
operated as an executive review board responsible for reviewing corporate-costs
documentation, making decisions about what should or should not be funded, and
approving the final corporate-costs budget. Board decisions are presented at a series of
meetings where presentations and roundtable discussions are held and where Board
members have the opportunity to challenge any item in the proposed budget.

However, there is no charter that clearly outlines the responsibilities and focus of the
Corporate Board and defines its cost containment responsibilities for NOAA’s corporate
costs. The Board’s responsibilities must be defined and, once agreed upon, a formal
charter should be established that clearly describes the Board’s structure, membership,
and responsibilities.

NOAA’s Response

NOAA officials take exception to our statement that there is no assurance that the
information the Corporate Board uses to make decisions regarding the level of funding
for corporate costs, including which projects to fund, is reasonable, accurate, or fully
supported. They also take exception to our assertion that they did not share corporate
costs information with the line offices in a timely manner and in a format that is easily
understood. NOAA officials stated that they met with line office personnel twice before
the Corporate Board meeting and responded to line office requests for documentation and
charts so that the process would be more inclusive. They also state that prior to FY 2000,
corporate meetings were closed so the new way of developing corporate costs was an
education process for all involved. NOAA officials agree that they were severely limited
by the lack of accurate and available financial data from FIMA but, in the future, they
will be able to utilize both CAMS and Activity-Based Costing software to respond to
customer questions on their usage for a particular service provided. NOAA officials also
state that formal notification of the corporate-costs figures was provided to the line
offices in FY 2002, that they are now formally briefing line offices and providing reports
quarterly on corporate costs, and that they returned unused corporate cost funds to the
line offices in FY 2001. Additionally, a formal charter is in draft for the Business
Management Fund Customer Service Advisory Board, which will replace the Corporate
Board. The Advisory Board will hold its first meeting in May 2003.




                                       12
U.S. Department of Commerce                                     Report No. STD-14427-3-0001 

Office of Inspector General                                                      March 2003




OIG Comments

We note NOAA’s concern over our statements regarding the adequacy of information the
Corporate Board uses to make decisions and the sharing of information with line offices.
However, we determined during our audit of the corporate-costs process for fiscal years
2000 and 2001, that NOAA had not developed formal policies and procedures to be used
by management in order to make funding decisions. Further, there was no formal charter
outlining the responsibilities of the Corporate Board in the corporate-costs process. As a
result, we concluded that there was no assurance that the information that management
used to make decisions regarding the level of funding for corporate costs was reasonable,
accurate, or fully supported. Therefore, we reaffirm our position that NOAA needs to
establish a formal planning process for its corporate costs including establishment of
formal policies and procedures, and definitions of executive oversight so that decisions
made are consistent, complete, and accurate. We appreciate that NOAA has
acknowledged problems with their corporate-costs planning process and has reported that
they have initiated steps to make improvements.

III. CORRECTIVE ACTIONS TAKEN BUT MORE NEEDED

NOAA has recognized many of the problems with its budgetary and financial systems
and has commissioned several studies; however, NOAA officials have been slow to take
some of the needed corrective actions identified by those studies. Several studies
conducted by NOAA internal teams--including a 1996 study of NOAA’s overhead, a
1997 study of the budget process, and a 1998 study of the Administrative Support
Centers--recommended improvements, such as tying assessments to services received,
increasing the involvement of top NOAA officials in the process, and enhancing
customers’ involvement in the process. In 2000, the National Academy of Public
Administration, at NOAA’s request, completed a review of NOAA’s budget and financial
management processes that included eight recommendations. NAPA identified several
accountability issues regarding corporate-costs and made one recommendation that also
addressed previously identified issues from the above-mentioned studies. Although
NOAA has made efforts to identify problems and solutions regarding the corporate-costs
process through these various studies, it has not implemented all necessary
improvements.

NOAA has taken a number of important steps to address the reported problems with the
corporate-costs process. NOAA created and filled a position, which has subsequently
become vacant, of Deputy CFO/Director of Budget (Budget Officer) at the SES level
with responsibility over the corporate costs process and, as noted previously, contracted
with the National Academy of Public Administration (NAPA) to perform a study,
completed in March 2000, of NOAA’s budget and financial management processes.
NOAA also established an executive level Corporate Board to provide oversight and
approve the corporate-costs budget, developed an informal structure to guide the
corporate-costs planning process, and moved the responsibility for developing and
managing corporate costs to the Budget Office. In early FY 2001, the Business
Management Fund Division within the Budget Office was formed to manage the


                                       13
U.S. Department of Commerce                                                    Report No. STD-14427-3-0001 

Office of Inspector General                                                                     March 2003


corporate-costs process and facilitate communication between NOAA headquarters and
line offices. NOAA developed a Table of Organization (TO)8 for OFA to assist in the
development of staffing and projected labor costs. NOAA also stated that it worked with
congressional staff members to produce a restructured budget for FY 2002. NOAA
officials further stated that the Program Support Budget Activity within the Operations,
Research and Facilities account was restructured in the new budget to fully fund EXAD
activities with appropriated funds, negating the need for supplemental funding from the
line office appropriations through the corporate-costs assessment.

NOAA is currently exploring ways to more equitably distribute corporate costs. NOAA
issued interim policies and procedures on indirect costs on September 12, 2000, and
updated them in November 2001. Further, NOAA initiated action in FY 2002 so that all
corporate-costs non-policy activities and services can eventually be distributed on a fee-
for-service basis using Activity-Based Costing9. NOAA has hired a contractor to better
define the services provided and the associated costs so that line offices can be charged
for the services they receive. NOAA officials stated that the contractor is working with
the Budget Office to develop a methodology to distribute any common costs that cannot
be directly charged. Finally, NOAA has, consistent with the NAPA report
recommendations, requested Congressional approval to establish a “Business
Management Fund” (BMF), which is structured as a working capital fund (WCF). The
WCF will be managed by the Business Management Fund Division.

Although NOAA has taken steps to establish accountability in the corporate-costs process
and make it more equitable, it still has more to do. We support NOAA’s decision to
obtain an independent study by NAPA and agree with the report’s recommendations, but
NOAA should address the recommendations in this OIG report before it establishes a
WCF. We have noted previously that the NOAA Budget Officer, with the cooperation of
management officials, has spearheaded recent corrective actions to address the problems
with corporate costs. However, in order to ensure that these actions are implemented and
the momentum continues, regardless of management changes, NOAA needs to include in
its audit action plan in response to this audit report comprehensive steps to ensure that
actions necessary to resolve and implement NAPA report recommendations addressing
the corporate costs process are clearly defined. The action plan steps should address
developing a clear and formal requirements process, instituting a methodology that
correlates costs to services provided, and converting, if applicable, any remaining non
8
  The Table of Organization is a tool that maps authorized organization and position data to budgetary
information on employees, positions, grades/steps. The Table of Organization will provide OFA
management with information on the organization’s structure, authorized positions and staffing status, as
well as actual and projected labor and benefits costs by position and organizational component.
9
  NOAA plans to use Activity-Based Costing as the costing methodology for directly charging users. ABC
focuses on the activities of a production cycle, based on the premises that (a) an output requires activities to
produce, and (b) activities consume resources. ABC systems use cost drivers to assign costs through
activities to outputs. The ABC cost assignment is a two-stage procedure. The first stage assigns the costs
of resources to activities and the second stage assigns activity costs to outputs. Implementing ABC
requires four major steps: (1) identify activities performed in a responsibility segment to produce outputs,
(2) assign or map resources to the activities, (3) identify outputs for which the activities are performed, and
(4) assign activity costs to the outputs (FASAB Standard #4, Managerial Cost Accounting Concepts and
Standards for the Federal Government.)


                                                14
U.S. Department of Commerce                                       Report No. STD-14427-3-0001
Office of Inspector General                                                        March 2003

service activities including any non-service activities identified as a result of the ABC
costing analysis funded by assessments to appropriations.

NOAA’s Response

NOAA officials stated that they plan to complete by April 2003 all actions for the one
NAPA recommendation pertaining to corporate costs. They further stated that they are in
the process of completing a clear requirements process for corporate costs and that it will
be formalized by the spring corporate board meeting.

OIG Comments

We acknowledge that NOAA has taken steps to address the issues identified within the
one NAPA recommendation addressing the corporate-costs process. For example,
NOAA has taken steps to establish a cost distribution methodology to better associate
costs with services provided, and to develop a clear requirements process. However,
some of the actions NOAA needs to take to address the NAPA recommendation have not
yet been implemented. It is important to formally track these activities until all actions
have been implemented.


Recommendations

We recommend that the NOAA Chief Financial Officer/Chief Administrative Officer
ensure that the following actions are undertaken:

   1. Improve the methods by which corporate costs are funded by the line offices by:

           a. 	 Developing and implementing appropriate distribution methodologies and
                related algorithms that fairly and transparently correlate costs to services
                received and meet the requirements contained in FASAB Standard #4,
                Managerial Cost Accounting Concepts and Standards for the Federal
                Government for costs that cannot be directly attributed to specific line
                offices. The methodologies should be fully documented in NOAA’s
                directives system.

           b. 	 Using fee-for-service billing for those cost elements where that method is
                practical and appropriate. The process for such billings should be
                documented in NOAA’s directives system.

       NOAA’s Response to Recommendations. NOAA concurs with the
       recommendations.

   2. 	 Improve the planning process for developing the corporate costs by:

           a. 	 Developing formal policies and procedures that detail the NOAA
                corporate-costs formulation and distribution process and that outline the


                                        15
U.S. Department of Commerce                                     Report No. STD-14427-3-0001
Office of Inspector General                                                      March 2003

               purpose, objectives, roles, responsibilities, key events, and timeline. The
               policies and procedures should be fully documented in NOAA’s directives
               system.

           b. 	 Establishing a charter for the Corporate Board. The charter should define
                the Board’s authority, mission, objectives, and membership, as well as
                membership criteria and responsibilities, including responsibilities for
                containing costs.

       NOAA’s Response to Recommendations. NOAA concurs with the
       recommendations.

   3. 	 Include in the audit action plan in response to this audit report specific steps to
        address corporate-costs-related problems identified by this report and addressed in
        the March 2000 NAPA report. The steps should identify the problems, specify
        appropriate tasks to resolve the problems, identify responsible officials, and
        include dates for completion. The action plan steps should address how NOAA
        will improve accountability to customers, ensure a clear and formal requirements
        process, develop a methodology to correlate costs to services provided, and
        convert, if appropriate, any remaining non-service activities, including any non-
        service activities identified as a result of the ABC costing analysis, funded by
        assessments to appropriations. The audit action plan will be monitored to ensure
        that all remedial tasks identified are completed.

       NOAA’s Response to Recommendation. NOAA generally concurs with the
       recommendation. However, NOAA stated that the March 2000 National
       Academy of Public Administration report includes as an appendix an aggressive,
       comprehensive plan that served as a blueprint for necessary corrective actions.
       NOAA further states that the statement of work for the ABC contract addresses
       all of the items mentioned specifically in the OIG’s recommendation. NOAA
       officials also state that they already have action plans to address the OIG
       recommendation and suggest that the OIG recommendation should be revised to
       state that the existing plans should be monitored.

       OIG Comments. We acknowledge that NOAA has taken actions to address
       ongoing problems but need to see a detailed action plan to resolve ongoing
       corporate costs problems. The March 2000 NAPA report contains at Appendix B
       (A Road Map to Comprehensive Improvement), which is a schedule providing a
       broad sequence of events that could be undertaken in order to implement some of
       the major NAPA recommendations. The Appendix contains general actions
       regarding the corporate costs process but does not contain specific tasks to resolve
       the problems, responsible officials for each task, and specific dates for completing
       each task. Additionally, the Appendix itself references the agency’s development
       of an action plan that would aid in the implementation of the report
       recommendations. Without a detailed plan, NOAA does not have a formal activity
       and reporting mechanism to document the actions required, taken, or planned to



                                       16
U.S. Department of Commerce                                    Report No. STD-14427-3-0001 

Office of Inspector General                                                     March 2003


       address recommendations, nor does it have the basis for an accomplishment report
       to detail the improvements NOAA has made. Additionally, there is no assurance
       that ongoing or planned corrective actions will continue.

       NOAA states that the statement of work issued for the ABC contract addresses all
       of the items mentioned in the OIG recommendations; however, a statement of
       work is not in itself an action plan. We, therefore, reaffirm our finding but have
       modified our recommendation to allow NOAA to include the detailed tasks from
       the ABC contract in the audit action plan.




                                      17
U.S. Department of Commerce                                   Report No. STD-14427-3-0001 

Office of Inspector General                                                    March 2003




                                                                           APPENDIX I

                                     ACRONYMS

AA             Allowance Advice
ASC            Administrative Service Center
BMF            Business Management Fund
CAMS           Commerce Administrative Management System
CFO            Chief Financial Officer
DOC            Department of Commerce
EXAD           Executive Direction and Administration
FASAB          Federal Financial Accounting Standards Board
FTE            Full Time Equivalent
LO             Line Office
MB             Management and Budget
NAPA           National Academy of Public Administration
NESDIS         National Environmental Satellite, Data, and Information Service
NMFS           National Marine Fisheries Service
NOAA           National Oceanic and Atmospheric Administration
NOS            National Ocean Service
NWS            National Weather Service
OAR            Office of Oceanic and Atmospheric Research
OFA            Office of Finance and Administration
OGC            Office of General Counsel
OIG            Office of Inspector General
OMAO           Office of Marine and Aviation Operations
ORF            Operations, Research and Facilities
PO             Program Office
SO             Staff Office
SSMC           Silver Spring Metro Center
TO             Table of Organization
WCF            Working Capital Fund
U.S. Department of Commerce                                           Report No. STD-14427-3-0001 

Office of Inspector General                                                            March 2003


                                                                                  APPENDIX II
                                     GLOSSARY OF TERMS1

ACTIVITY BASED ACCOUNTING – ABC focuses on the activities of a production
cycle, based on the premises that (a) an output requires activities to produce, and (b)
activities consume resources. ABC systems use cost drivers to assign costs through
activities to outputs. The ABC cost assignment is a two-stage procedure. The first stage
assigns the costs of resources to activities and the second stage assigns activity costs to
outputs. Implementing ABC requires four major steps: (1) identify activities performed
in a responsibility segment to produce outputs, (2) assign or map resources to the
activities, (3) identify outputs for which the activities are performed, and (4) assign
activity costs to the outputs (FASAB Standard #4, Managerial Cost Accounting Concepts
and Standards for the Federal Government).

ADMINISTRATOR’S FUND – A contingency fund previously called the
Administrator’s Distribution Fund established annually from appropriated funds for and
administered by the Administrator, NOAA. Provides the funding for unplanned
requirements which could not be foreseen when the budget was presented to Congress.

ALLOWANCE ADVICE – The official notification by the Budget Officer, NOAA, to
the line/staff office that obligations may be incurred up to stated annual amounts for each
appropriation and the Management Fund.

APPROPRIATION – An authorization by an act of Congress that permits Federal
agencies to incur obligations and to make payments out of the Treasury for specified
purposes. An appropriation usually follows enactment of authorizing legislation. An
appropriation act is the most common means of providing budget authority, but in some
cases the authorizing legislation itself provides the budget authority.

BASE BUDGET – The cost of performing the same services or conducting the same
program in the budget year as is planned for the current year. Normally, the only
differences between the base budget and the current year budget are costs which cannot
be avoided or which are nonrecurring.

CENTRAL ADMINISTRATIVE SUPPORT – Provides administrative services and
assistance for all elements within NOAA in such areas as personnel, finance,
procurement, warehouse, mail service and housekeeping functions. These two elements
of EXAD are combined for rate calculation and cost distribution.

COMMON SERVICES – Those centrally administered services that are common to all
NOAA line/staff offices, and financial management centers. Individually, the bills for
these items are small, and the vendors numerous. They cover such items as postage,
certain telephone services, certain building services, payments to the Department of
Labor for employee’s compensation for injuries while on duty, etc. It has been found
more economical to process payment for these items from a single fund and is also easier
to manage. The costs are distributed to all NOAA tasks.
1
    Source is the NOAA Budget Handbook, unless otherwise indicated.
                                            1
U.S. Department of Commerce                                      Report No. STD-14427-3-0001
Office of Inspector General                                                       March 2003

CORPORATE COSTS – Costs and expenditures associated with NOAA’s central
executive management and policy direction, as well as those costs associated with
centrally-controlled administrative services provided by the Office of Finance and
Administration. (NOAA commonly-used definition)

EXAD – Executive Direction provides agency-wide leadership for NOAA, is responsible
for developing overall agency goals and objectives, provides overall direction and
evaluation of NOAA programs, etc.

FEE FOR SERVICE – Term used when there is a direct correlation between costs and
services received. Fees are established for the services provides by an organization.

FIMA – NOAA’s financial management system encompasses both the budget planning
subsystem and the accounting subsystem. Both planned and actual costs and obligations
are thereby available for meeting internal and external reporting requirements.

LINE ITEMS - The first level distribution of the major program elements of an entity
program. It is the lowest level of data required to be presented in the formal documents
of the Department’s program budgeting system. It is also the lowest level at which the
full budget request is displayed in budget justifications to the Congress.

MANAGEMENT FUND ACCOUNT – A Management Fund Account is authorized by
law to credit collections from two or more appropriations to finance activity not
involving a continuing cycle of business-type operations. Such accounts do not generally
own a significant amount of assets such as supplies, equipment, or loans, nor do they
have a specified amount of capital provided--a corpus. Source: GAO’s A Glossary of
Terms Used in the Federal Budget Process, GAO/AFMD-2.1.1, January 1993.

PERSONNEL SERVICES – Amounts associated with regular pay for permanent
employees, regular pay for other than permanent employees, other personnel
compensation (i.e., overtime, night work differential), leave surcharge, and special
personnel services payments (i.e., shore leave earned, compensatory leave earned).

WORKING CAPITAL FUND - A Working Capital Fund is a revolving fund that
operates as an accounting entity. In these funds, the assets are capitalized and all income
is in the form of offsetting collections derived from the fund’s operations and available in
their entirety to finance the fund’s continuing cycle of operations without fiscal year
limitation. A working capital fund is a type of intragovernmental revolving fund.
Source: GAO’s A Glossary of Terms Used in the Federal Budget Process, GAO/AFMD
2.1.1, January 1993.




                                        2
